NO:

IN THE

SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021

BOBBY MARTIN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

MICHAEL CARUSO
Federal Public Defender
TRACY DREISPUL*
Assistant Federal Public Defender
Deputy Chief, Appellate Division
*Counsel of Record
150 W. Flagler Street, Suite 1500
Miami, FL 33130
305-536-6900
September 20, 2021

APPENDIX

TABLE OF APPENDICES
Martin v. United States, No. 182337, 852 F. App’x 485 (11th Cir. Apr. 21, 2021) .. A-1
Order Adopting Magistrate Judge’s Report (Apr. 2, 2018) ...................................... A-2
Report of Magistrate Judge (Feb. 20, 2018) ............................................................. A-3
Judgment in a Criminal Case (Jan. 31, 2008) ......................................................... A-4

A-1

Martin v. United States, 852 Fed.Appx. 485 (2021)

852 Fed.Appx. 485 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S. Ct. of App. 11th Cir. Rule 36-2.
United States Court of Appeals, Eleventh Circuit.
Bobby MARTIN, Petitioner - Appellant,
v.
UNITED STATES of America,
Respondent - Appellee.
No. 18-12337
|
Non-Argument Calendar
|
(April 21, 2021)
Appeal from the United States District Court for the Southern
District of Florida, D.C. Docket Nos. 0:16-cv-61848-JIC,
0:07-cr-60153-JIC-2
Attorneys and Law Firms
Tracy Michele Dreispul, Federal Public Defender's Office,
Miami, FL, Daryl Elliott Wilcox, Michael Caruso, Federal
Public Defender, Federal Public Defender's Office, Fort
Lauderdale, FL, for Petitioner - Appellant
Emily M. Smachetti, U.S. Attorney's Office, Miami, FL,
Sivashree Sundaram, U.S. Attorney's Office, West Palm
Beach, FL, U.S. Attorney Service - Southern District of
Florida, U.S. Attorney Service - SFL, Miami, FL, for
Respondent - Appellee
Before MARTIN, GRANT, and BRASHER, Circuit Judges.
Opinion
MARTIN, Circuit Judge:
*486 Bobby Martin was convicted after a jury trial on seven
charges related to a conspiracy to rob a cocaine stash house.
He now appeals the denial of his 28 U.S.C. § 2255 petition,
arguing that one of his convictions is invalid in light of United
States v. Davis, 588 U.S. ––––, 139 S. Ct. 2319, 204 L.Ed.2d
757 (2019). Davis invalidated 18 U.S.C. § 924(c)’s residual

clause on the ground that it is unconstitutionally vague. 139
S. Ct. at 2336.
While this appeal was pending, this Circuit issued a published
decision in Granda v. United States, 990 F.3d 1272 (11th Cir.
2021), which resolved the open issues in Mr. Martin's case
against him. After careful consideration, and on the basis of
Granda, we therefore affirm the denial of the § 2255 petition.

I
In 2007, a confidential information tipped off the Bureau
of Alcohol, Tobacco, and Firearms (“ATF”) that a particular
group of people, which came to include Mr. Martin, wanted
to rob a target of cash or drugs. That informant worked
with an undercover ATF agent to investigate this group. The
undercover ATF agent, posing as a disgruntled drug courier
who wanted to steal cocaine from his employer, met with
the group. The undercover agent proposed stealing at least
15 kilograms of cocaine from his employer's stash house,
which was protected by armed guards. Mr. Martin and others
agreed to the plan. Specifically, Mr. Martin agreed to commit
the robbery, proposed a method of dividing the cocaine
they anticipated recovering, and said the guard protecting
the cocaine might be killed if he offered any resistance
during the robbery. When asked if the group had the tools to
commit the robbery, Mr. Martin assured the undercover agent,
“everything is done.”
Mr. Martin repeatedly reaffirmed his willingness to perform
the robbery. He said he and his crew would be ready, and again
indicated that anyone guarding the cocaine might be killed if
he resisted during the robbery: “I can eliminate everything.
Sometimes guys like that don't deserve to breathe.” Mr.
Martin confirmed he had all the materials necessary to commit
the robbery, including a silencer, and said he would bring an
extra gun to plant it on the guard and “make it look like a drug
deal gone bad.” Mr. Martin also reassured the undercover
agent that he had experience with these jobs and had been
committing robberies for a long time. Over the next month,
Mr. Martin asked about the status of the impending cocaine
robbery. Mr. Martin also discussed with the undercover agent
the plan for the robbery. He explained who would be on
lookout while he and another co-conspirator entered the stash
house to steal the cocaine. He assured the undercover agent
that all firearms needed for the robbery had been acquired.
He also discussed plans for the proceeds he would earn from
selling the stolen cocaine.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Martin v. United States, 852 Fed.Appx. 485 (2021)

On the day of the arranged robbery, Mr. Martin and his coconspirators met with the undercover agent. Everyone in the
group dressed in black and wore skull caps and gloves to
conceal their appearances. They again discussed the plan for
the robbery.
At that point, law enforcement moved in to arrest the
defendants. The vehicle in which Mr. Martin and his coconspirators *487 came to the scene contained: two loaded
rifles (including a short-barreled rifle), binoculars, a knife, a
canvas bag to carry cocaine, and other items for use in the
robbery. Following his arrest, Mr. Martin confessed that he
was going to conduct a robbery of 15 kilograms of cocaine
and that the firearms brought to commit the robbery had been
used before.
Mr. Martin was charged with conspiracy to obstruct, delay,
and affect interstate commerce by means of robbery, in
violation of 18 U.S.C. § 1951(a) (“Hobbs Act robbery”)
(Count 1); conspiracy to possess with intent to distribute at
least five kilograms of cocaine, in violation of 21 U.S.C.
§§ 841(a) and 846 (Count 2); attempt to possess with intent
to distribute at least five kilograms of cocaine, in violation
of 21 U.S.C. §§ 841(a)(1), 841(b)(1)(A), and 846 (Count
3); conspiracy to carry a firearm during and in relation to
a crime of violence and during and in relation to a drug
trafficking crime, in violation of 18 U.S.C. § 924(o) (Count 4);
knowingly carrying a firearm during and in relation to a crime
of violence and during and in relation to a drug trafficking
crime, in violation of 18 U.S.C. §§ 924(c)(1)(A), 924(c)(1)
(B), and 2 (Count 5); possession of an unregistered firearm, in
violation of 26 U.S.C. §§ 5861(d) and 5871 and 18 U.S.C. §
2 (Count 6); and possession of a firearm by a convicted felon,
in violation of 18 U.S.C. § 922(g)(1) (Count 7).

2551, 192 L.Ed.2d 569, and Welch, ––– U.S. ––––, 136
S. Ct. 1257, 194 L.Ed.2d 387. He contended his § 924(c)
conviction was no longer valid because conspiracy to commit
Hobbs Act robbery no longer qualified as a crime of
violence. The government argued that Mr. Martin's claims
were procedurally defaulted; that Johnson did not apply to §
924(c)(3)(B); and that, in any event, his § 924(c) conviction
was based on the alternative drug trafficking predicates left
unaffected by Johnson.
In 2018, the District Court denied the § 2255 petition and
denied a certificate of appealability (“COA”) based on this
Court's then-binding precedent. 2
*488 In 2019, the Supreme Court decided Davis, holding
that the § 924(c)(3)(B) residual clause was unconstitutionally
vague. 139 S. Ct. at 2336. In 2020, this Court granted Mr.
Martin a COA on the following issue:

Whether Martin's conviction for
using a firearm in furtherance of
a conspiracy to commit Hobbs Act
robbery and drug-trafficking crimes
in violation of 18 U.S.C. § 924(c)
remains valid in light of Davis v.
United States, ––– U.S. ––––, 139 S.
Ct. 2319, 204 L.Ed.2d 757 (2019)?

We now address this issue.

II

The jury found Mr. Martin guilty on all counts. The District
Court sentenced him to 240 months’ imprisonment as to
Counts 1 and 4; 260 months as to Counts 2 and 3; and 120
months as to Counts 6 and 7; all to run concurrently with
each other. The court also sentenced him to 120 months’
imprisonment as to Count 5, to be served consecutively to the
terms imposed in the other counts. This resulted in a total term
of 380 months’ imprisonment for Mr. Martin.

In reviewing a district court's denial of a motion to vacate
under 28 U.S.C. § 2255, this Court reviews de novo legal
conclusions and reviews factual findings for clear error. Lynn
v. United States, 365 F.3d 1225, 1232 (11th Cir. 2004) (per
curiam).

In 2016, Mr. Martin filed a motion seeking leave to file
a second or successive § 2255 motion, which this Court

Because we conclude Mr. Martin's Davis challenge fails on
the merits, we need not decide whether the argument is
procedurally defaulted.

granted. 1 He argued his § 924(c) conviction should be
invalidated in light of Johnson, 576 U.S. 591, 135 S. Ct.

III

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Martin v. United States, 852 Fed.Appx. 485 (2021)

The merits question before us is whether Mr. Martin's
conviction for using a firearm, in the furtherance of a
conspiracy to commit Hobbs Act robbery and drug-trafficking
crimes, in violation of 18 U.S.C. § 924(c) remains valid in
light of Davis, 139 S. Ct. at 2336, which invalidated § 924(c)’s
residual clause as unconstitutionally vague. Relief is only
proper if we have “grave doubt” about whether Mr. Martin's
conviction rested on the invalid predicate. See Granda, 990
F.3d at 1293.
We begin with the counts of his conviction. The indictment
alleged that the predicate offenses for the § 924(c) charge in
Count 5 were the Hobbs Act robbery offense in Count 1 and
the two drug trafficking offenses in Counts 2 and 3. Both sides
agree the Hobbs Act robbery offense (Count 1) can no longer
serve as a predicate offense after Davis. As such, the question
in Mr. Martin's case is whether his § 924(c) conviction (Count
5) nevertheless remains valid because it rests on an alternative
drug trafficking predicate (Count 2 or 3) left unaffected by
Johnson.
In Granda, our Circuit answered this question yes. 990 F.3d
at 1291. Mr. Granda argued his § 924(o) conviction should
be vacated in light of Davis. Id. at 1280. But this Court
determined that this argument was procedurally defaulted and
that, regardless, it failed on the merits because any error
was harmless. Id. at 1280–81. The panel concluded there
was a fundamental shortcoming “that cut[ ] across both the
procedural and merits inquiries.” Id. at 1280. Namely, the §
924(o) predicates were “inextricably intertwined,” because
they arose out of the same cocaine robbery scheme. Id. at
1280, 1290. Granda held that the jury could not have found
that Mr. Granda conspired to possess a firearm in furtherance
of a Hobbs Act conspiracy without also finding he conspired
to possess a firearm in furtherance of the attempted Hobbs
Act robbery, as well as in furtherance of conspiring and
attempting to possess cocaine with intent to distribute and
in furtherance of attempting a carjacking. See id. Each of
these other offenses remained a valid predicate for the §
924(o) conviction after Davis. Thus, the panel concluded
the overlapping facts considered by the jury in deciding the
alternative predicate offenses *489 rendered any error in the
jury instructions harmless. Id. at 1290–91.
That reasoning applies here. Mr. Martin was convicted of
conspiring and attempting to commit an armed robbery of a
cocaine stash house, specifically a § 924(c) offense (Count 5)
predicated on the now-invalid conspiracy to commit Hobbs
Act robbery (Count 1) or either one of the still-valid offenses

of conspiracy and attempted cocaine trafficking (Counts 2
and 3). Like Mr. Granda, this record shows that Mr. Martin's
predicate offenses are also inextricably intertwined because
they all arose out of the same cocaine robbery. A jury, on
these facts, could not have found that Mr. Martin committed
Count 5—carrying a firearm during and in relation to a crime
of violence and a drug trafficking crime—in relation to Count
1—Hobbs Act robbery—without also finding that Martin
committed Count 5 in relation to Count 2—conspiracy to
possess with intent to distribute five kilograms or more of
a mixture and substance containing cocaine—or Count 3—
attempt to possess with intent to distribute five kilograms
or more of a mixture and substance containing cocaine.
Therefore, Mr. Martin has not shown that the § 924(c)
conviction necessarily rested on Count 1. The acts for which
Mr. Martin was convicted of in Count 1 are inextricably
intertwined with two predicates—Counts 2 and 3—that
remain valid after Davis.

IV
Mr. Martin makes several other arguments. None persuade us.
First, he argues Stromberg v. California, 283 U.S. 359, 51
S. Ct. 532, 75 L.Ed. 1117 (1931), and its progeny mean a
“general verdict must be set aside if the jury was instructed
that it could rely on any of two or more independent grounds,
and one of those grounds is insufficient, because the verdict
may have rested exclusively on the insufficient ground.” Zant
v. Stephens, 462 U.S. 862, 881, 103 S. Ct. 2733, 2745, 77
L.Ed.2d 235 (1983).
But in Granda, this Court held that Stromberg error is subject
to the harmless error standard in Brecht v. Abrahamson, 507
U.S. 619, 113 S. Ct. 1710, 123 L.Ed.2d 353 (1993). 990
F.3d at 1294. And under harmless error review, “reversal is
warranted only when the petitioner suffered ‘actual prejudice’
from the error.” Id.; see also Hedgpeth v. Pulido, 555 U.S. 57,
61, 129 S. Ct. 530, 532, 172 L.Ed.2d 388 (2008) (per curiam)
(holding that “[a]n instructional error arising in the context
of multiple theories of guilt” does not “vitiate[ ] all the jury's
findings”).
Mr. Martin has not shown that he suffered actual prejudice
from the general verdict. As set out above, the predicate
offenses for his § 924(c) conviction are inextricably
intertwined. Granda, 990 F.3d at 1293. This record
demonstrates that Mr. Martin was extensively involved in

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Martin v. United States, 852 Fed.Appx. 485 (2021)

planning the robbery of a drug stash house containing at least
15 kilograms of cocaine. He repeatedly told co-conspirators
he was willing to bring firearms to the robbery and kill
anyone offering resistance during the robbery. Given this, Mr.
Martin's case is comparable to that in Granda. His still-valid
drug trafficking offenses (Counts 2 and 3) are inextricably
intertwined with the now-invalid Hobbs Act robbery (Count
1). See id. Mr. Martin carried a firearm during and in relation
to the robbery offense that was also intertwined with the
drug trafficking offenses. We also note the strength of the
evidence against Mr. Martin, including his confession to law
enforcement that he planned to conduct a robbery of 15
kilograms of cocaine and brought firearms to commit the
robbery. Given the facts of this case, Mr. Martin has not shown
that he suffered actual prejudice *490 from the general
verdict for the § 924(c) conviction. Thus, his Stromberg-based
argument fails. 3
Next, Mr. Martin urges this panel to apply the “categorical
approach” to presume his § 924(c) conviction rests on the
now-invalid Hobbs Act robbery. The categorical approach
is used “to determine whether a particular offense qualifies
under crime-of-violence-type elements clauses such as those
found in § 924(c)(3)(A) and in the [Armed Career Criminal
Act].” Granda, 990 F.3d at 1295. Under the categorical
approach, courts “examin[e] only the elements of the statute
of conviction, not the specific conduct of a particular
offender.” United States v. Oliver, 962 F.3d 1311, 1316
(11th Cir. 2020) (quotation marks omitted). Courts further
“assume that the conviction rested on the ‘least of the acts
criminalized’ by the statute, because to determine upon
which of the criminalized acts the conviction rested would

violate the categorical approach's command not to analyze the
facts underlying the conviction.” Granda, 990 F.3d at 1295
(quotation marks omitted) (quoting Oliver, 962 F.3d at 1316;
Moncrieffe v. Holder, 569 U.S. 184, 190–91, 133 S. Ct. 1678,
1684, 185 L.Ed.2d 727 (2013)). But in Granda this Court also
rejected the argument that the categorical approach prohibits
courts from determining that the jury did not rely solely on
a now-invalid Hobbs Act conviction as the predicate. Id.
Therefore, this argument is unavailing.
Mr. Martin's next argument, invoking judicial factfinding,
fares no better. He argues that concluding the jury relied on
still-valid predicates would constitute impermissible judicial
factfinding in violation of Alleyne v. United States, 570 U.S.
99, 133 S. Ct. 2151, 186 L.Ed.2d 314 (2013). 4 However, “a
judge conducting a Brecht harmless error analysis does not
find a fact at all; instead, the judge asks as a matter of law
whether there is grave doubt about whether an instruction
on an invalid predicate substantially influenced what the jury
already found beyond a reasonable doubt.” Granda, 990 F.3d
at 1295. Thus, Mr. Martin's Alleyne argument also fails.
Mr. Martin's arguments not otherwise addressed in this
opinion are also unpersuasive. His § 2255 petition fails on the
merits.
AFFIRMED.
All Citations
852 Fed.Appx. 485 (Mem)

Footnotes
1

This Court affirmed Mr. Martin's convictions. United States v. Chung, 329 F. App'x 862, 865, 869 (11th Cir.
2009) (per curiam) (unpublished). In October 2009, the Supreme Court denied his petition for writ of certiorari.
Mr. Martin then filed his initial § 2255 motion, alleging a variety of claims, which the District Court denied.
He then filed a motion to reduce his sentence pursuant to 18 U.S.C. § 3582(c) and Amendment 782 to the
Sentencing Guidelines, which the District Court granted, reducing Mr. Martin's sentence from 380 months’
imprisonment to 328 months’ imprisonment. In 2016, Mr. Martin filed a motion to preserve claims under
Johnson v. United States, 576 U.S. 591, 135 S. Ct. 2551, 192 L.Ed.2d 569 (2015), and Welch v. United
States, 578 U.S. ––––, 136 S. Ct. 1257, 194 L.Ed.2d 387 (2016), in the event those decisions could apply
retroactively to career offender provisions. The District Court dismissed the motion as an unauthorized second
or successive § 2255 motion.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Martin v. United States, 852 Fed.Appx. 485 (2021)

2

3

4

Under this Court's precedent at the time, the District Court was bound to hold that Johnson did not apply to
§ 924(c)(3)(B). Ovalles v. United States, 861 F.3d 1257 (11th Cir. 2017), reh'g en banc granted and opinion
vacated, 889 F.3d 1259 (11th Cir. 2018), and on reh'g en banc, 905 F.3d 1231 (11th Cir. 2018), and opinion
reinstated in part, 905 F.3d 1300 (11th Cir. 2018) (per curiam), and abrogated by Davis, 139 S. Ct. 2319.
In re Gomez, 830 F.3d 1225 (11th Cir. 2016) (per curiam), does not compel a different conclusion. In Granda,
this Court distinguished Gomez and held that it did not apply to preclude Brecht harmless error inquiry on
the merits of a claim like Mr. Granda's. 990 F.3d at 1296.
Alleyne applies to findings of fact that increase a mandatory minimum, which must be proven to a jury beyond
a reasonable doubt. 570 U.S. at 114–16, 133 S. Ct. at 2162–63.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

A-2

Case 0:07-cr-60153-JIC Document 340 Entered on FLSD Docket 04/02/2018 Page 1 of 4

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-61848-CIV-COHN/WHITE
(Case No. 07-60153-CR-COHN)
BOBBY MARTIN,
Movant,
vs.
UNITED STATES OF AMERICA,
Respondent.
__________________________________/
ORDER ADOPTING MAGISTRATE JUDGE’S REPORT
THIS CAUSE is before the Court upon the Report and Recommendation [DE 23]
(“Report”) of United States Magistrate Judge Patrick A. White regarding Movant Bobby
Martin’s Amended Motion for habeas relief pursuant to 28 U.S.C. § 2255 [DE 18]
(“Motion”). The Court has conducted a de novo review of the Motion, the Report,
Movant’s Objections to the Report [DE 26] (“Objections”), all related filings, and the
record in this case, and is otherwise advised in the premises. Upon careful
consideration, the Court will adopt the Report and deny the Motion.
BACKGROUND
On October 25, 2007, a jury convicted Movant on all seven counts of a
superseding indictment charging him with: (1) conspiracy to affect interstate commerce
by robbery; (2) conspiracy to possess with intent to distribute five or more kilograms of
cocaine; (3) attempt to possess with intent to distribute five or more kilograms of
cocaine; (4) conspiracy to use and carry a firearm during and in relation to a crime of
violence; (5) carrying a short-barreled firearm during and in relation to a crime of

Case 0:07-cr-60153-JIC Document 340 Entered on FLSD Docket 04/02/2018 Page 2 of 4

violence; (6) possession of an unregistered firearm; and (7) felon in possession of a
firearm. [Cr. DE 141; Cr. DE 193.] 1 The Court sentenced Movant to a term of 240
months imprisonment on Counts 1 and 4, 260 months on Counts 2 and 3, and 120
months on Counts 6 and 7, with all three terms to be served concurrently. [Cr. DE 193.]
It also sentenced Movant to a consecutive 120 month term on Count 5, as required by
18 U.S.C. § 924(c)(1)(B)(i). That statute imposes a ten year mandatory minimum
sentence for use of a short-barreled rifle or shotgun “during and in relation to any crime
of violence.”
Movant filed his first § 2255 motion in August 2010. [Cr. DE 271.] The Court
denied that motion in June 2011. [Cr. DE 275.] In July 2016, Movant obtained leave
from the United States Court of Appeals for the Eleventh Circuit to file a second or
successive § 2255 motion (the Motion). [DE 1.] In the Motion, Movant argues that his
sentence is constitutionally flawed in light of the Supreme Court’s decision in Johnson v.
United States, 135 S.Ct. 2551 (2015). [DE 18 at 5-6.] Johnson held that the Armed
Career Criminal Act’s residual clause, codified at 18 U.S.C. § 924(e)(2)(B)(ii), is voidfor-vagueness. 135 S.Ct. 2551. Movant argues that Johnson’s natural extension is a
finding that § 924(c)(3)(B)’s residual clause—defining “crime of violence”—is similarly
vague. [DE 18 at 10-12.] Such a finding would invalidate the predicate for his ten year
mandatory sentence on Count 5.
This matter is easily resolved. During the pendency of the Motion, the Eleventh
Circuit explicitly held that “Johnson’s void-for-vagueness ruling does not apply to or
invalidate the ‘risk-of-force’ clause in § 924(c)(3)(B).” United States v. Ovalles, 861 F.3d
1

“Cr. DE” refers to docket entries in the underlying criminal case: Case No. 07-60153CR-COHN.
2

Case 0:07-cr-60153-JIC Document 340 Entered on FLSD Docket 04/02/2018 Page 3 of 4

1257, 1265 (11th Cir. 2017). Movant argues that the constitutionality of § 924(c)(3)(B)
is the subject of a split amongst the appellate circuits. [DE 26 at 2-3.] He notes, for
instance, that the United States Court of Appeals for the Seventh Circuit has held that §
924(c)(3)(B) is void-for-vagueness. [Id. at 3 (citing United States v. Jackson, 865 F.3d
946, 952-54 (7th Cir. 2017)).] While that fact would be helpful to Movant if this Court
were located in the Seventh Circuit, its location in the Eleventh means that the Court
must apply the holding in Ovalles, not Jackson. Nor will the Court adopt Movant’s
suggestion to delay ruling until the Supreme Court has an opportunity to resolve the
split. This Court refuses to speculate as to what action the Supreme Court may or may
not take if and when it chooses to address the issue. Until the Supreme Court or an en
banc panel of the Eleventh Circuit says otherwise, Ovalles remains controlling law in
this circuit. Accordingly, the Motion must be denied.
CONCLUSION
In light of the foregoing, it is thereupon ORDERED and ADJUDGED as follows:
1.

The Report [DE 23] is hereby ADOPTED in its entirety.

2.

The Objections [DE 26] are OVERRULED.

3.

The Motion [DE 18] is hereby DENIED.

4.

Pursuant to Rule 11 of the Rules Governing habeas cases, Movant is DENIED a

certificate of appealabilty because he has failed to make a substantial showing that he
was denied a constitutional right. The Court notes that pursuant to Rule 22(b)(1) of the
Federal Rules of Appellate Procedure, Movant may request issuance of a certificate of
appealability from the United States Court of Appeals for the Eleventh Circuit.

3

Case 0:07-cr-60153-JIC Document 340 Entered on FLSD Docket 04/02/2018 Page 4 of 4

5.

The Clerk of Court is directed to CLOSE this case and DENY as moot all

pending motions.
DONE AND ORDERED in Chambers at Fort Lauderdale, Broward County,
Florida, this 2nd day of April, 2018.

Copies provided to:
United States Magistrate Judge Patrick A. White
Counsel of record via CM/ECF

4

A-3

Case 0:16-cv-61848-JIC Document 23 Entered on FLSD Docket 02/20/2018 Page 1 of 7

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO.: 16-61848-CV-COHN
(07-60153-CR-COHN)
MAGISTRATE JUDGE PATRICK A. WHITE
BOBBY MARTIN,
REPORT OF MAGISTRATE JUDGE

Movant,
v.
UNITED STATES OF AMERICA,
Respondent.
/

I. Introduction
The movant, a federal prisoner, currently confined at the
Coleman Low Correctional Institution in Coleman, Florida, has filed
this §2255 motion challenging his conviction and sentence entered
following a guilty plea in case no. 07-60153-CR-COHN. He seeks
relief in light of the Supreme Court’s ruling in Johnson v. United
States, ___ U.S. ____, 135 S.Ct. 2551 (2015)1, made retroactively
applicable to cases on collateral review by Welch v. United States,
___ U.S. ____, 136 S.Ct. 1257 (2016).
This

Cause

has

been

referred

to

the

Undersigned

for

consideration and report pursuant to 28 U.S.C. §636(b)(1)(B),(C);
S.D.Fla. Local Rule 1(f) governing Magistrate Judges, S.D. Fla.
Admin. Order 2003-19; and, Rules 8 and 10 Governing §2255 Cases in
the United States District Courts.
The petitioner’s application to file a second or successive
motion to vacate his sentence was granted by the Eleventh Circuit

1

In Johnson, the Supreme Court held that the Armed Career Criminal Act’s
(ACCA) residual clause was unconstitutionally vague, and that imposing an
enhanced sentence pursuant to that clause thus violates the Constitution’s
guarantee of due process.

Case 0:16-cv-61848-JIC Document 23 Entered on FLSD Docket 02/20/2018 Page 2 of 7

Court of Appeals. (DE# 1). In the order granting the application
the Eleventh Circuit recognized that the movant had not been
sentenced under the Armed Career Criminal Act but that he was
sentenced under 18 U.S.C. § 924(c).
The counsel was appointed and the parties were directed to
brief the issues. The government filed a response opposing the
motion to vacate.(CV-DE# 5). The movant, through counsel, filed a
motion

to

correct

sentence

and

memorandum.

(CV-DE#

18).

The

government then filed a supplemental response to which the movant
again replied. (CV-DE# 19, 22). The court has reviewed all of the
pleadings, the Presentence Investigation Report (“PSI”) and all
pertinent portions of the underlying criminal case.

II.

Procedural History

On August 23, 2007, the movant was charged, along with others,
with conspiracy to obstruct, delay, and affect interstate commerce
by means of robbery, in violation of 18 U.S.C. § 1951(a) (Count 1);
conspiracy to possess with intent to distribute at least five
kilograms of cocaine, in violation of 21 U.S.C. §§ 841(a), 846
(Count 2); attempt to possess with intent to distribute at least
five kilograms of cocaine, in violation of 21 U.S.C. §§ 841(a), 846
(Count 3); conspiracy to carry a firearm during and in relation to
a

crime

of

violence

and

during

and

in

relation

to

a

drug

trafficking crime, in violation of 18 U.S.C. §§ 924(c)(1)(A),
(c)(1)(B), and ( o ) (Count 4); knowingly carrying a firearm during
and in relation to a crime of violence and during and in relation
to

a

drug

trafficking

crime,

in

violation

of

18

U.S.C.

§§

924(c)(1)(A), (c)(1)(B), and 2 (Count 5); and possession of an
unregistered firearm, in violation of 26 U.S.C. §§ 5861(d), 5871
and

18

U.S.C.

§

2

(Count

6).

(CR-DE#

62).

The

movant

was

individually charged with possession of a firearm by a convicted
2

Case 0:16-cv-61848-JIC Document 23 Entered on FLSD Docket 02/20/2018 Page 3 of 7

felon, in violation of 18 U.S.C. § 922(g)(1) (Count 7).
The movant was convicted of all charges. (CR-DE# 141). A PSI
was prepared. Under the PSI the movant’s guideline sentencing range
was 210 to 262 months. (PSI ¶74). The court was required to impose
a consecutive 10 year sentence for the 924(c) charge. (PSI ¶74). He
was sentenced to a total sentence of 380 months imprisonment, the
sentence included concurrent sentences of 240 months imprisonment
on Counts 1 and 4, 260 months imprisonment on Counts 2 and 3, and
120 months’ imprisonment on Counts 6 and 7, with a consecutive
sentence of 120 months imprisonment on Count 5, followed by three
years’ supervised release as to Counts 1, 4, 6 and 7, and five
years’ supervised release as to Counts 2, 3 and 5, all to run
concurrently for a total period of supervised release of five
years. (CR-DE 193).
On May 11, 2009, the Eleventh Circuit affirmed the movant’s
conviction and sentence.(CR-DE# 268). The Supreme Court denied
movant’s petition for certiorari on October 5, 2009. (CR-DE# 270).

Movant has now returned to this court filing his first motion
to vacate on August 31, 2010. He raised eight claims for relief.
None of the claims addressed the issue raised in the instant
motion. The motion was denied on June 2, 2011. The Eleventh Circuit
denied his request for a certificate of appealability on November
23, 2011.
The instant motion raises the single claim that his sentence
should be reduced in light of Johnson.

III.

Discussion

3

Case 0:16-cv-61848-JIC Document 23 Entered on FLSD Docket 02/20/2018 Page 4 of 7

The movant argues that Johnson is applicable to § 924(c)'s
residual clause. He argues conspiracy to commit HObbs Act robbery
is not a crime of violence and that it is impossible to discern
whether the conviction under § 924(c) was based on the conspiracy
to commit Hobbs Act robbery or the drug trafficking charges. He
further argues that the 924(c) was duplicitous as charged because
it could not be determined if the jury determined the movant was
guilty based on the Hobbs Act conspiracy charge or the drug
trafficking charge.
The government has responded that the movant’s claim is
procedurally barred because it was not raised on direct appeal. The
government argues that the claim is not so novel that it could not
have been raised on direct appeal prior to the issuance of the
Johnson decision. The government further argues that the movant
cannot rely on a claim of actual innocence to avoid the procedural
bar. Finally the government contends that the § 924(c) charge can
be supported by either the conspiracy charge or the trafficking
charge.
Since the briefing of this issue, the Eleventh Circuit has
determined that the decision in Johnson does not apply to residual
clause found in § 924(c), thus rendering these arguments moot and
requiring that the motion be denied. Although there is a split
amongst the Circuits with regard to whether §924(c)(3)(B) is
unconstitutionally void-for-vagueness post-Johnson, the Eleventh
Circuit has recently agreed with decisions from the Second,2 Sixth,3
and Eighth4 Circuits, ?holding that Johnson's void-for-vagueness
ruling does not apply to or invalidate the 'risk-of-force' clause

2

United States v. Hill, 832 F.3d 135, 145-49 (2d Cir. 2016).

3

United States v. Taylor, 814 F.3d 340, 375-79 (6th Cir. 2016).

4

United States v. Prickett, 839 F.3d 697, 699-700 (8th Cir. 2016).

4

Case 0:16-cv-61848-JIC Document 23 Entered on FLSD Docket 02/20/2018 Page 5 of 7

in §924(c)(3)(B).” See Ovalles v. United States, 861 F.3d 1257,
1265 (11th Cir. 2017). In so ruling, the Eleventh Circuit observed
that the ?ACCA identifies 'previous convictions' for the purpose of
applying a recidivist sentencing enhancement to a defendant felon
who later possesses a firearm in violation of 18 U.S.C. §922(g),”
while ?§924(c) creates a new and distinct offense for a person who,
'during

and

in

relation

to

any

crime

of

violence

or

drug

trafficking crime, ... for which the person may be prosecuted in a
court of the United States, uses or carries a firearm, or who, in
furtherance of such crime, possesses a firearm.'” Id. (quoting
§924(c)(1)(A)).
In other words, the Eleventh Circuit determined that §924(c)
?is not concerned with recidivism, but rather with whether the
instant firearm was used 'during and in relation to' the predicate
crime of violence (or drug trafficking offense) or possessed in
furtherance

of

such

predicate

offenses.”

Id.

(citing

§924(c)(1)(A)(ii)-(iii)). Thus, the Eleventh Circuit concluded that
the ?'nexus' between the §924(c) firearm offense and the predicate
crime of violence makes the crime of violence determination more
precise and more predictable.” Id.
The Eleventh Circuit further found that ?§924(c)(3)(B) is not
plagued by the same contradictory and opaque indications as the
ACCA's residual clause on 'how much risk' is necessary to satisfy
the statute, because the phrase 'substantial risk' is not preceded
by a 'confusing list of examples.'” Id. at *8. Since movant's
challenge to his §924(c) conviction is now foreclosed by binding
Eleventh Circuit precedent, this claim warrants no federal habeas
corpus relief.
V.

Certificate of Appealability

As amended effective December 1, 2009, §2255 Rule 11(a)
5

Case 0:16-cv-61848-JIC Document 23 Entered on FLSD Docket 02/20/2018 Page 6 of 7

provides

that

“[t]he

district

court

must

issue

or

deny

a

certificate of appealability (“COA”) when it enters a final order
adverse to the applicant,” and if a certificate is issued “the
court must state the specific issue or issues that satisfy the
showing required by 28 U.S.C. §2253(c)(2).” See Rule 11(a), Rules
Governing §2255 Proceedings for the United States District Courts.
A §2255 movant “cannot take an appeal unless a circuit justice or
a circuit or district judge issues a certificate of appealability
under 28 U.S.C. §2253(c).” See Fed.R.App.P. 22(b)(1). Regardless,
a timely notice of appeal must still be filed, even if the court
issues a certificate of appealability. See 28 U.S.C. §2255-Rule
11(b).

However, “[A] certificate of appealability may issue ... only
if the applicant has made a substantial showing of the denial of a
constitutional

right.”

See

28

U.S.C.

§2253(c)(2).

To

make

a

substantial showing of the denial of a constitutional right, a
§2255 movant must demonstrate “that reasonable jurists could debate
whether (or, for that matter, agree that) the petition should have
been resolved in a different manner or that the issues presented
were

adequate

to

deserve

encouragement

to

proceed

further.”

Miller–El v. Cockrell, 537 U.S. 322, 336-37 (2003) (citations and
quotation marks omitted); see also Slack v. McDaniel, 529 U.S. 473,
484 (2000); Eagle v. Linahan, 279 F.3d 926, 935 (11th Cir. 2001).

After review of the record in this case, the Court finds the
movant

has

not

demonstrated

that

he

has

been

denied

a

constitutional right or that the issue is reasonably debatable. See
Slack, 529 U.S. at 485; Edwards v. United States, 114 F.3d 1083,
1084 (11th Cir. 1997).

Consequently, issuance of a certificate of

appealability is not warranted and should be denied in this case.
Notwithstanding, if

movant does not agree, he may bring this

6

Case 0:16-cv-61848-JIC Document 23 Entered on FLSD Docket 02/20/2018 Page 7 of 7

argument to the attention of the Chief Judge in objections.
VI. Conclusion
Based on the foregoing, it is recommended that this motion to
vacate be DENIED, that no certificate of appealability issue, and
the case be closed.
Objections to this report may be filed with the District Judge
within fourteen days of receipt of a copy of the report.
Signed this 20th day of February, 2018.

UNITED STATES MAGISTRATE JUDGE
cc:
Daryl Elliott Wilcox
Federal Public Defender's Office
One East Broward Boulevard
Suite 1100
Fort Lauderdale, FL 33301-1842
Donald F. Chase , II
United States Attorney's Office
500 E Broward Boulevard
7th Floor
Fort Lauderdale, FL 33394

7

A-4

Case 0:07-cr-60153-JIC Document 193 Entered on FLSD Docket 02/01/2008 Page 1 of 7

Case 0:07-cr-60153-JIC Document 193 Entered on FLSD Docket 02/01/2008 Page 2 of 7

Case 0:07-cr-60153-JIC Document 193 Entered on FLSD Docket 02/01/2008 Page 3 of 7

Case 0:07-cr-60153-JIC Document 193 Entered on FLSD Docket 02/01/2008 Page 4 of 7

Case 0:07-cr-60153-JIC Document 193 Entered on FLSD Docket 02/01/2008 Page 5 of 7

Case 0:07-cr-60153-JIC Document 193 Entered on FLSD Docket 02/01/2008 Page 6 of 7

Case 0:07-cr-60153-JIC Document 193 Entered on FLSD Docket 02/01/2008 Page 7 of 7

